audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Tulsa, Oklahoma, Police Department

GR-80-99-008
March 16, 1999

Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the City of Tulsa, Oklahoma. Tulsa received a grant of $1,935,687 to hire 26 police officers under the Phase I program and $2,907 to train 1 police officer under the Troops to Cops Program. The purpose of the additional officers was to enhance community policing efforts.

The City of Tulsa properly managed the COPS grants with the exception of a minor cost issue. We found that reimbursements from December 5, 1997, through May 28, 1998, included unallowable expenses totaling $600; $450 of the unallowable expense was charged to the Phase I grant. This item is discussed in the Findings and Recommendations section of the report. Our scope and methodology appear in Appendix I.